Evaluation of Board Casehandling Reports, Report No. OIG-AMR-37-02-03
Evaluation of Board Casehandling Reports Report No. OIG-AMR-37-02-03
BACKGROUND
OBJECTIVES, SCOPE, AND METHODOLOGY
Interviews
Report Inventory and Review
FINDINGS
PCL Reports
Additional PCL Capabilities
Training
RECOMMENDATIONS
Management's Comments
ATTACHMENTS
A - Standard Reports Summary
B - Special Reports Summary
APPENDIX Memorandum from the Acting Executive Secretary, IG Draft Report "Evaluation of Board Casehandling Reports" (OIG-AMR-37), dated September 18, 2002
ACRONYMS
ALJ  - Administrative Law Judge
CATS - Case Activity Tracking System
NLRB - National Labor Relations Board
OES  - Office of the Executive Secretary
OIG  - Office of the Inspector General
PCL  - Pending Case Load
ULP  - Unfair Labor Practices
INSPECTOR GENERAL
NATIONAL LABOR RELATIONS BOARD
WASHINGTON, DC 20570
September 20, 2002
I hereby submit the report titled Evaluation of Board Casehandling Reports, Report No. OIG-AMR-37-02-03.  This audit was conducted to evaluate whether the casehandling reports prepared by the Office of the Executive Secretary provide useful information in an efficient manner, and are being used by the Board to manage cases.  Gathering information has a cost and, therefore, reports should avoid duplication and be used.
The Office of the Inspector General contracted with M.D. Oppenheim & Company, P.C. (Oppenheim) to conduct this audit. Oppenheim used a combination of identifying and analyzing available reports, interviewing officials responsible for maintaining the Pending Case Load (PCL) system and producing reports, and end users to form conclusions.
The PCL system is user friendly and provides the information needed to adequately manage Agency caseload.  However, there still exists the need to automate reports that are not available on-line and in real-time to achieve maximum efficiency from the system.  The 13 reports that have been developed and automated may be accessed and utilized in electronic format or printed.  This capability provides real-time access to data and reduces the need for central distribution of hard copy reports.
For off-line reports to become automated and other potential enhancements to PCL developed, increased programming time must be devoted to the PCL system. NLRB management has formed a Triage Committee, a group of NLRB staff composed of the Deputy Chief Counsels, Solicitor, Director of the Office of Representation Appeals, and the Deputy Executive Secretary, to facilitate casehandling communication.  A member of this group could liaison with the Information Technology Branch to identify and prioritize cost effective improvements to maximize the usefulness of PCL.
Although there appears to be a potential for redundancy in the information and reports disseminated through the PCL system, some Agency officials use each of the reports produced, and we did not identify any needless duplication.
Agency officials noted that, to be of greatest benefit, PCL needs to develop into more of a research tool.  PCL is already programmed to collect the information necessary, but the poor quality and lack of thoroughness of the data entered into the system preclude its effective use as a research tool.
No formal training program exists for PCL users or information providers.  As the functionality of the PCL system is developed, on-going training is needed to help system users and providers become familiar with any system changes to efficiently utilize the system capabilities and information available to them.  This PCL system training should be provided to all PCL users and providers.
We recommend that the Acting Executive Secretary:
1. Appoint a member of the Triage Committee to act as a liaison between the PCL system providers and users and the Information Technology Branch to facilitate development of additional PCL capabilities and reporting, including automation of off-line reports.
2. Develop procedures to ensure the quality, accuracy, and thoroughness of case notes data in the PCL system is uniformly maintained and updated on a timely basis by Board Member staff to enhance the use of PCL as a research tool.
3. Develop an ongoing training program for PCL users and providers to ensure efficient and effective use of PCL resources that includes periodic updates for new reports.
An exit conference was held on August 6, 2002, with the Executive Secretary and Deputy Executive Secretary to discuss findings and recommendations.  A draft report was sent to the Acting Secretary on August 16, 2002, for review and comment. He responded that the Board generally agreed with the findings and recommendations. His comments are incorporated as appropriate and presented in their entirety as an appendix to this report.
Jane E. Altenhofen
Inspector General
BACKGROUND
The National Labor Relations Board (NLRB or Agency) is an independent federal agency created by Congress in 1935 to administer the National Labor Relations Act (the Act), the primary law governing relations between unions and employers in the private sector.  In its statutory assignment, the NLRB has two principal functions:  (1) to determine, through secret-ballot elections, the free democratic choice by employees whether they wish to be represented by a union in dealing with their employers and if so, by which union; and (2) to prevent and remedy unlawful acts, called unfair labor practices (ULP), by either employers or unions.
In Fiscal Year (FY) 1999, the latest year for which complete statistics are available, over 27,000 ULP charges and close to 5,800 representation petitions were filed with the Agency.  The Board issued 413 ULP and 280 representation cases in FY 1999.
NLRB Authority is divided by law and delegation.  The five-member Board primarily acts as a quasi-judicial body in deciding cases on formal records.  The General Counsel, like each member of the Board, is appointed by the President, is responsible for the issuance and prosecution of formal complaints in cases leading to Board decisions, and has general supervision of the NLRB's nation-wide network of offices.
An ULP charge may be filed by any person.  After a charge is filed, the case is investigated by an agent assigned to one of 32 Regional Offices, 16 Resident Offices, or 3 Sub-regional Offices.  If the investigation determines that a violation of the Act did not occur, the case is dismissed by the Regional Director.  Charging parties may withdraw their charge at any time.  If the case is deemed meritorious, a complaint is issued by the Regional Director.  Throughout the life of a case, the goal is to have the parties settle the case without a hearing.  If the parties cannot reach agreement, the case is prosecuted by the Regional Office before an Administrative Law Judge (ALJ).  Within 28 days, or longer if an extension is granted, parties may appeal ALJ decisions by filing an exception with the Board.
The Act provides for five three-member panels, with each Board Member acting as a head of one panel.  Cases appealed to the Board are assigned to a panel by the Executive Secretary.  Assignments are made roughly in the order in which cases are received.  Cases that present novel questions of law or issues on which the Board is known to be divided are often referred to the full Board.  Each Board Member has a professional staff that includes a chief counsel, deputy chief counsel, two supervisory attorneys, and a staff of approximately 10 attorneys, to assist in processing cases.  In addition to Board staffs, some representation cases are drafted by the Office of Representation Appeals.  Board decisions may be appealed to the US Courts of Appeals and the Supreme Court.
The Solicitor is the Board's chief legal officer and advises the Board on questions of law and policy; adoption, revision, or rescission of Rules and Regulations and Statements of Procedure; pending legislation amending or affecting the Act; and litigation affecting the Board.  The Office of the Solicitor, consisting of less than five attorneys, drafts advisory opinions and declaratory orders for the Board concerning whether the Board would assert jurisdiction in a particular case.  The Solicitor also drafts motions for summary judgment.  Of the 413 ULP cases issued by the Board in FY 1999, approximately 35 percent were drafted by the Office of the Solicitor.
The Office of Representation Appeals handles various categories of representation cases for the Board including rulings on requests for review and rulings on appeals from Regional Directors' administrative dismissal of petitions.  The office consists of approximately 12 attorneys, 2 supervisors, and a director.  Of the 280 representation cases issued by the Board in FY 1999, approximately 30 percent were drafted by the Office of Representation Appeals.
The Executive Secretary is the chief administrative and judicial management officer of the Board.  In addition to assigning cases to the Board for review, the Office of the
Executive Secretary (OES) maintains control records on all cases before the Board and records all correspondence between parties to the case and the Board.  The OES maintains an electronic database of cases at the Board, the Pending Case Load (PCL) system.  The system generates reports used to manage cases and collects and compiles historical data for external reporting.  Multiple reports are generated monthly on topics such as drafts put into circulation, remands, 10(j) injunction cases, Gissel cases, speed team, and super-speed team cases.  As reported in the OIG Review of Board Casehandling Timeliness, Report No. OIG-AMR-26-00-02, March 31, 2000, Board Members agreed that sufficient information was available to manage caseload.
NLRB staff developed the PCL system in-house utilizing Access software and contractor assistance. This was a replacement for a previous system that utilized Dataflex software.  The Case Activity Tracking System (CATS) developed for the NLRB is a database system maintained at the Regional level.  Based upon discussions with officials in OES, PCL will interface with CATS in the near future (possibly within the next six months).  Management stated that the interface will permit some PCL data elements to flow from PCL into CATS, but at this time CATS data will not flow to PCL.
The PCL system was initiated during FY 2000 to promote a more efficient and effective means of case management at the Board.  The PCL system was envisioned as a case management tool to help consolidate the myriad reports previously circulated by OES.  NLRB management believed that the PCL system would provide a more accurate and timely casehandling system to better monitor the organization's caseload.
OBJECTIVES, SCOPE, AND METHODOLOGY
The objective of our audit was to evaluate whether the casehandling reports prepared by OES provide useful information in an efficient manner, and are being used by the Board to manage cases.  Our evaluation was performed in accordance with Government Auditing Standards issued by the Comptroller General of the United States under the broad category of performance audits.  Our process evaluation focused on factors that may impede or contribute to the efficient and effective use of casehandling reports in the accomplishment of performance objectives.
Our audit objectives were designed in view of (1) the significance of the issue, (2) contributions they can make for improvement, and (3) availability of data and resources.  All evaluations begin with objectives and those objectives determine the type of audit to be conducted and the standards to be followed. We identified the following objectives:
To determine the extent the reports achieve a desired level of case management;
To assess the efficiency and effectiveness of the reports;
To determine ways of making the reports better;
To identify redundancy between reports;
To assess management's need as to the volume and content of the reports; and
To provide a written report with specific recommendations to assist NLRB in enhancing its overall utilization of casehandling reports.
The audit included ULP and representation casehandling reports prepared by OES in Washington, D.C. during or for the FY 2002.  This included reports used for both internal management and external reporting.  Information reported in the Agency's Annual Report or Annual Performance Report required by the Government Performance and Results Act was not within the scope of this audit.
The audit methodology is the process used to gather and analyze data to reach conclusions and provide a basis for recommendations.  In preparing the methodology for this audit, we considered the following elements:
significance and needs of potential users of the final evaluation report;
identification of the casehandling reports and their use;
potential alternative approaches identified by management;
factors that may inhibit the efficiency and effectiveness of the casehandling reports;
criteria to measure utility of the casehandling reports;
definition of terms;
identification of NLRB staff to be interviewed;
timing of audit procedures (e.g., when and in what sequence various procedures should be performed); and
what type of recommendations will be expected to result from the engagement and at what level of detail.
In performing the audit, we met with OIG personnel on June 10, 2002 to discuss audit objectives and to gain a thorough understanding of the engagement.  We reviewed background material provided by the OIG at that meeting and other pertinent material available through the NLRB website.
We also met with the auditee prior to the start of fieldwork in order to facilitate understanding and cooperation.  Our discussion included the following topics:
audit objectives, scope and methodology;
basic philosophy that went into developing the objectives and scope;
criteria for determining the efficiency and effectiveness of the casehandling reports;
expected auditee participation and cooperation during the fieldwork; and
design of the reporting process to include the discussion document (preliminary draft report), draft report, and final report.
We developed a written work plan to establish a clear relationship between the audit objectives, methodology, and anticipated fieldwork to accomplish the above objectives.  The work plan laid out specific tasks to be accomplished during the fieldwork phase of our audit.  Our audit procedures focused on two major areas: 1) conducting staff interviews of key employees and 2) preparing an inventory and analyzing reports currently available from the PCL system.
Interviews
We conducted interviews with employees to gain insight into the efficiency and effectiveness of the types of reports being issued and used.  During the course of our fieldwork, it became apparent that there are three general categories of employees at the Agency with respect to the PCL system.
1. Users - The individuals who use the information provided by the PCL system and the various casehandling reports to track the progress of a case from its origination through the final issuance of a Board decision.  Employees in this category include the various Board Member staffs, the Solicitor and his staff, the Director of the Office of Representation Appeals and his staff, and OES officials.
2. Providers - The employees responsible for maintenance of the PCL system          and distribution of hard-copy reports from the system.  Employees in this category include the OES staff.
3. Others - NLRB personnel that do not have access to, or do not use the PCL system in the normal course of their jobs.  These employees include the Office of the General Counsel staff and the Regional Office staff.  However, we interviewed the Deputy General Counsel, at the direction of OIG personnel, because he has held numerous positions in the Agency and, therefore, could provide useful insight into Agency operations.  We interviewed the Supervisory Field Examiner from Region 2 (Manhattan) because she was involved in the initial development and implementation of the PCL system.
Our main concentration in this audit area was to determine if the users were getting the information they needed to ensure effective and efficient tracking of cases through the system.  More specifically, we talked with the Chief Counsels and Deputy Chief Counsels of each Board staff, as well as other users.  Based upon our discussions with NLRB staff, it appears the Deputy Chief Counsels are the primary users of the PCL system output.  The Deputy Chief Counsels serve as case managers for cases assigned to their respective Board Member and, more than anyone else, monitor the status of cases as they move through the system.  As a result, we interviewed each of the four Deputy Chief Counsels on an individual basis and held a group round table discussion with all four to provide an open forum for their thoughts and ideas regarding improvements to the PCL system.
We also interviewed OES staff.  These are the people charged with maintaining the PCL system.  Our interviews with these individuals were designed to gain insight into the maintenance and capabilities of PCL.
NLRB is in a state of flux at the current time due to the imminent turnover of the Board Members.  Two of the current three Board Members (two Board Member slots, including the Chairman, are currently vacant) are recess appointments whose terms will expire when Congress adjourns, probably by the end of the calendar year.   As a result, we asked the interviewees to respond to our questions as though they were functioning during a more "normal" time at the Agency and steer away from the current condition.  This became important because under current conditions the Board staffs are working toward expediting to decision specific cases requested by departing Board Members, which may not be indicative of the caseload focus of the Agency in a more stable environment.
Report Inventory and Review
We developed an inventory of reports based on the two groups of reports currently available through the PCL system: "Standard" reports and "Special" reports.  The regular distribution/access list of these reports includes the Board, Chief Counsels, Deputy Chief Counsels, Supervisory Attorneys, Executive Secretary, Director of Office of Representation Appeals, Solicitor, and Associate Executive Secretaries.  However, this distribution/access could be limited for any report based upon the discretion of the Executive Secretary or the Deputy Executive Secretary.
Appendix A of this document lists the "Standard" reports.  "Standard" reports are the most common reports circulated by OES and utilized by users.  Some of these reports are maintained on a real-time, on-line basis and are available at any time to anyone that has access to PCL.  Other "Standard" reports are prepared by OES staff and require some manual annotation (identified as off-line reports in Appendix A) to sort/obtain information, produce, and distribute.
Appendix B of this document lists the "Special" reports which are developed based on a specific sort criteria and are usually issued for unique purposes (e.g., Master Wish List, Focus List, etc.).  These reports are generated from the PCL database, but may require manually prepared hard-copy reports to be issued due to additional annotation or data analysis required. These reports are not available on-line, and the frequency of issuance depends on the current environment of the Agency or users' requests for specific types of case status updates.
It is the Deputy Executive Secretary's responsibility to oversee the staff that maintains the PCL system and to distribute the hard copy reports to the various users.  The distribution of the hard copy reports is on an as-needed basis as deemed necessary by the Executive Secretary or the Deputy Executive Secretary (e.g., to provide emphasis as to the importance of a particular case; at the request of a particular Board Member).  Typically, reports that are available on-line are not produced and distributed in hard-copy.
We also analyzed the reports listed in Appendixes A and B with the Deputy Executive Secretary to determine potential redundancy in content and usefulness based on user feedback.   Gathering case data has a cost and, therefore, reports should avoid duplication and be used by recipients.
FINDINGS
PCL Reports
Based on our interviews, there appears to be a general consensus that the PCL system is user friendly and provides the information needed to adequately manage Agency caseload.  However, there still exists the need to automate the remaining off-line reports to achieve maximum efficiency from the system.  The standard reports (e.g., Speed-Team / Draft-in-Lieu Report, Monthly Balance Sheet, Drafts Put Into Circulation List, etc.) and the special reports (e.g., Substitution Lists) utilized on a recurring basis and currently circulated in hardcopy need to be upgraded to provide on-line, real-time availability.
The PCL system is based on a relational database.  This means there is the potential to produce an infinite number of reports based on specific criteria.  The use of an internal report writing capability allows reports to be designed and made accessible on-line and in real-time to any user.  The reports that have been developed and automated may be accessed and utilized in electronic format or printed, as needed, based on individual user's needs.  This capability provides real-time access to data and reduces the need for central distribution of hard copy reports.  Not all off-line reports can be automated (e.g., Wish List) because additional data analysis is required, but automation of the other reports that currently remain off-line would reduce the staff time required to manually annotate the data to produce these reports.
Each of the Deputy Chief Counsels stated that they use the various casehandling reports to a great extent, and are able to get the information they need to carry out their respective job responsibilities through utilization of the PCL system.  As expected, different Deputy Chief Counsels favor different reports, depending on their particular Board Member's needs, their staffs' caseload, and/or the Agency situation as a whole.  Users can obtain the type of information they require to track the progress of cases through the system, on either an on-going basis (through the standard reports format) or on an as-needed basis (through the special reports format).
Although there appears to be a potential for redundancy in the information/reports disseminated through the various PCL system reports (since all reports are generated from the same database), the interviewees did not express concerns as to the duplication of information/reports since the content in each report is defined by certain criteria.  For example, the "Oldest to Newest" report includes all pending cases arranged chronologically by date of assignment.  The "Oldest to Newest for Each Board Staff" report presents the same pending cases sorted chronologically by date of assignment as well as by stage and by Board Member staff.  The ability to obtain case data sorted in a variety of presentations facilitates the tracking and management of the case files.
It appears that in order for off-line reports to become automated and other potential enhancements to PCL developed, that increased programming time must be devoted to the PCL system.    Based on our interviews, it appears that limited programming resources are the major obstacle to automating other off-line reports and further expanding the capabilities of the PCL system. With expanded programming, the standard and special reports that are not currently available on-line in real-time could be produced.  Essentially the Agency's users/managers utilize the reports that are available/circulated, but they believe they could better manage their caseloads with these additional reports and information on-line.
Additional PCL Capabilities
System users are generally satisfied with the PCL system and the adequacy of its reports, but a common theme noted during the interviews was the desire for PCL to evolve into more of a research tool.  Most of the Chief Counsels and Deputy Chief Counsels felt that PCL is doing a good job in the case management area, but in its   current form,  lacks  the  necessary  elements/requirements  to become an effective
and efficient research tool.  Enhancement of the quality, accuracy, and thoroughness of the general assignment and procedural case notes, with an emphasis on identification of related issues which could be used as a search tool mechanism, would increase the research capabilities of the PCL system.
Because PCL is a relational database, there is the capability to record and store extensive amounts of information related to individual case files.  However, because the development of the PCL system in its first 2 years has focused specifically on its case management and reporting functions, additional uses of the system have only been informally discussed.  Expanding the quality and thoroughness of data currently being maintained in the system would allow the functionality of PCL to be expanded to permit on-line queries and searches of this electronic case library.  Board Member staff (since they are the most knowledgeable regarding case-related information) should be responsible for regularly inputting and editing case notes in sufficient detail to use PCL as a research tool.  As a Board office case activity research tool, PCL could provide additional efficiency in the timeliness of case processing.
Because of the diversity of users and providers of the system throughout the Agency and limited programming resources, a liaison is needed within NLRB to facilitate communication between the parties concerning future enhancement of PCL functionality and reporting capabilities.  Specific needs and preferences could be identified, discussed, and prioritized to maximize the use of the system and achieve cost effective improvements.  NLRB management has formed a Triage Committee, a group of NLRB staff composed of the Deputy Chief Counsels, Solicitor, Director of the Office of Representation Appeals, and the Deputy Executive Secretary, to facilitate casehandling communication.   A member of the Triage Committee, serving as a liaison, would be in a position to enhance communication between PCL providers and users and the Information Technology Branch.
Training
From the round table discussion held with the Deputy Chief Counsels, there was concurrence in the need for additional training and updating in the use of the PCL system.  The training currently provided to the Board staff is by means of demonstrating the reports available through the PCL system (report menus and on-screen viewing of the actual reports), as well as the current search capabilities of the system.  Training is provided to new staff after they are hired, but on-going training is not regularly provided to existing staff.  As the functionality of the PCL system is developed, on-going training is needed to help system users and providers become familiar with any system changes to efficiently utilize the system capabilities and information available to them.  This PCL system training should be provided to all Agency users and providers.
RECOMMENDATIONS
We recommend that the Acting Executive Secretary:
Appoint a member of the Triage Committee to act as a liaison between the PCL system providers and users and the Information Technology Branch to facilitate development of additional PCL capabilities and reporting, including automation of off-line reports;
Develop procedures to ensure the quality, accuracy, and thoroughness of case notes data in the PCL system is uniformly maintained and updated on a timely basis by Board Member staff to enhance the use of PCL as a research tool; and
Develop an on-going training program for PCL users and providers to ensure efficient and effective use of PCL resources that includes periodic updates for new reports.
Management's Comments
The Board generally agreed with the findings and recommendations in the report. They agreed with the first recommendation to appoint a liaison to facilitate PCL development, but noted that currently the direct control over allocation of ITB resources lies with organizational units other than the Board.
Concerning training, they noted that extensive initial PCL training was conducted through a series of separate sessions with managers, professional staff, and support staff. Joint training sessions were conducted when the new PCL version was implemented. Additionally, the detailed PCL manuals for professional and support staff have been written and will be distributed to the users in the near future.
ATTACHMENT A
NATIONAL LABOR RELATIONS BOARD
Evaluation of Board Casehandling Reports
Standard Reports Summary
(Office of Executive Secretary)
Report Name Description Frequency of Issuance On-Line/Off-Line
1
Board Pending Cases
Alphabetical listing arranged by Board Member staff, by stage (separate C-cases and R-cases lists).
Real-Time
On-Line
2
Pending Cases for Each Board Member
Alphabetical listing arranged by stage (separate C-cases and R-cases lists).
Real-Time
On-Line
3
Oldest to Newest
All pending cases arranged chronologically by date of assignment, by stage (separate C-cases and R-cases lists).
Real-Time
On-Line
4
Oldest to Newest for Each Board Staff
Pending cases arranged chronologically by date of assignment, by stage, by Board Member staff (separate C-cases and R-cases lists).
Real-Time
On-Line
5
One Member Only List
Circulated to each Board Member indicating which cases are awaiting a single Member's case approval.
Real-Time
On-Line
6
Participation List
Indicates Board Members involved/participating in each case. (Listed by C-cases and R-cases, Stage I, II, or III, by Board Member). Utilized by Board Members for determining "wish lists".
Real-Time
On-Line
7
GPRA 2002 Cases - Updated Stage I, II and III Lists
Arranged by staff and in oldest to newest assignment sequence. Includes due dates for initial action in Stage I C-cases and for circulation of drafts in Stage II C-cases.  Separate list of R-Unit GPRA 2002 Cases Pending is also attached.
As Needed
On-Line
8
Pending/Issued 10 (j) Injunction Cases
Alphabetical listing showing the status of cases in which the Board has previously authorized the GC to seek injunctive relief.  Annotated list showing the status of the injunction actions.
Real-Time
On-Line
9
Pending Gissel Cases
Alphabetical listing showing the status of the pending cases in which Gissel orders are sought.
Real-Time
On-Line
10
Court Remand Cases Pending and Issued
Alphabetical listing of all remand cases (following a court remand or at some point had been remanded by a court to the Board, but now are at the Board on exceptions to ALJ's, etc.) with status of case.
Real-Time
On-Line
11
Speed-Team / Draft-in-Lieu Report
Status of Speed-Team / Draft-in-Lieu cases.
Monthly
Off-Line
12
Monthly Balance Sheet (Cumulative)
Indicates the number of cases assigned and pending. (Month by month statistical report)
Monthly
Off-Line
13
Drafts Put Into Circulation List
Indicates movement of cases from Stage II to Stage III.
Monthly
Off-Line
14
Focus List (Circulated by Solicitor's Office)
All cases currently being handled in the Solicitor's office; distributed to each Board Member.
Weekly
Off-Line
NATIONAL LABOR RELATIONS BOARD
Evaluation of Board Casehandling Reports
Special Reports Summary
(Office of Executive Secretary)
Report Name Description Frequency of Issuance On-Line/Off-Line
1
Master Wish List / Departing Board Member Lists
Cases to complete and obtain decision before Board Member leaves.
As Needed
Off-Line
2
Focus List
Requires Board Member attention; target issues or particular cases.
As Needed
Off-Line
3
GPRA Stage I and II List With Due Dates
Arranged by Board Member staff/attorney; identifies due dates and includes other case status annotations.
As Needed
Off-Line
4
Stage I Overdue Report
Arranged by Board Member, with a star for each month the case, excluding iced cases, has been in stage. (can sort by any number of days)
Real-Time
On-Line
5
Stage II Overdue Report
Arranged by Board Member, with a star for each month the case, excluding iced cases, has been in stage. (can sort by any number of days)
Real-Time
On-Line
6
Stage III Overdue Report
Arranged by Board Member, with a star for each month the case, Excluding iced cases (cases on hold pending the outcome of a pending Supreme Court case, a lead case at the Board, or a related case by company) has been in stage more than 30 days. (Can sort by any number of days)
Real-Time
On-Line
7
Substitution Lists
Prepared when a departing Board Member leaves; designates which Board Members are now participating in a case.
As Needed
Off-Line
8
Annual GPRA List
Circulated at the beginning of the fiscal year; complete list of GPRA cases.
Annually
Off-Line
9
Related Issues Cases
Identifies cases in PCL by similar/related legal issue.
(Not currently circulated)
(A)
10
GPRA "Disposed Of" Report
List of GPRA cases issued and in issuance, orders denying review, automatic adoptions following the withdrawal of exceptions, and withdrawn cases. (C-cases and R-cases; cumulative by month).
As Needed
Off-Line
11
Updated GPRA "Disposed Of" Report at Fiscal Year End
List of GPRA cases issued and in issuance, orders denying review, automatic adoptions following the withdrawal of exceptions, and withdrawn cases. (C-cases and R-cases; cumulative status at end of fiscal year).
Annually
Off-Line
12
Median Days Report
Tracks the number of days issued cases spent at the Board, by Board Member, by type of case, and total cases. (number of days from initial assignment to sub-panel, days spent in Stages I and II, and days from initial assignment through issuance.)  Distribution would be limited to Board Members.
(Not currently circulated)
(A)
(A) Report not currently circulated; pending revision and update for programming of sort in PCL.  Report to be used for more efficient management of case load.
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board
Memorandum
TO: Jane E. Altenhofen
Inspector General
FROM: Lester A. Heltzer
Acting Executive Secretary
DATE: September 18, 2002
SUBJECT: IG Draft Report "Evaluation of Board Casehandling Reports" (OIG-AMR-37)
In response to your August 16, 2002 memo and on behalf of the Board, please be advised that the Board generally agrees with the findings and recommendations contained in the draft report "Evaluation of Board Casehandling Reports" prepared by M.D. Oppenheim & Company, PC. The Board considers the PCL system and its capabilities critical to its mission and that the PCL system has been highly successful from the viewpoint of both the providers and the users. Accordingly, the Board favors any recommendations for enhancement of PCL to further benefit its users.
The Board accepts the recommendations in the draft report with the following comments and suggestions that largely reflect points discussed in the August 6, 2002 exit conference held among the representatives of Oppenheim & Co., the Inspector General's Supervisory Auditor, the Executive Secretary and me.
Recommendation 1: "Appoint a member of the Triage Committee to act as a liaison between the PCL system providers and users and the Information Technology Branch to facilitate development of additional PCL capabilities and reporting, including automation of off-line reports."
As stated in the second full paragraph on page 12 of the draft report, "it appears that limited programming resources are the major obstacle to automating other off-line reports and further expanding the capabilities of the PCL system." The creation of a liaison should prove helpful in facilitating the IT Branch's understanding of the Board's PCL needs and assisting in the IT Branch's planning for development of additional PCL capabilities and reporting. It should be noted in the final report, however, that although currently direct control over allocation of IT Branch resources lies with organizational units other than the Board, the Board is considering actions in accordance with the Clinger-Cohen Act that would bring the IT Branch under a Chief Information Officer, who would be located outside the Division of Administration, and who would report jointly to the General Counsel and the Chairman of the Board.
Recommendation 2: "Develop procedures to ensure the quality, accuracy, and thoroughness of case notes data in the PCL system is uniformly maintained and updated on a timely basis to enhance the use of PCL as a research tool."
As specifically pointed out in the first full paragraph of page 13 of the draft report, "Board Member staff (since they are the most knowledgeable regarding case-related information) should be responsible for regularly inputting and editing case notes in sufficient detail to use PCL as a research tool." It is suggested that this recommendation in the final report reflect that finding by the insertion of the phrase "by Board Member staff" between the words "timely basis" and "to enhance."
Recommendation 3: "Development of a training program for PCL users and providers to ensure efficient and effective use of PCL resources that includes periodic updates for new reports."
The report at page 14 focuses on the need for "on-going" PCL training for Board Member staff. The final report should note, by way of background, that extensive initial PCL training was conducted through a series of separate sessions with managers, professional staff and support staff and that joint training sessions were conducted when the new PCL version was implemented. Additionally, the final report should mention that detailed PCL manuals for professional and support staff have been written and will be distributed to the users in the near future. Finally, it is suggested that this recommendation in the final report reflect the draft report's focus and findings by revising the initial words of the recommendation to read "Develop an on-going training program . . .."
cc: The Board
Jack. Toner
Emil George